                              SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-C-13-19                                    Office of Inspections                                February 2013




                 Compliance Followup Review of
                   Embassy Berlin, Germany




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a co py directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                       ii
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


                                Table of Contents
Key Judgments                                                                             1
Background                                                                                2
Evaluation of Compliance                                                                  3
Equal Employment Opportunity                                                              4
Downsizing of Staff in Consulates General Dusseldorf, Hamburg, and Leipzig                5
   Sale of U.S. Government-Owned Properties in Hamburg and Lease of Replacement Office
   Space                                                                                  6
   Cost-Benefit Analysis of Facility at Consulate General Leipzig                         6
   Plan for Management Support, Reporting, and Public Affairs Coverage for Downsized
   Consulates General                                                                      6
Consular Affairs                                                                           8
   Pilot Passport Program                                                                  8
   Innovative Practice: Domestic Issuance of Military Fee Passports Accepted Abroad        9
   Innovative Practice: Establishing Consular Systems Connectivity at Evacuation Points   10
   Consular Windows at Consulate General Munich                                           10
   Fire Safety Issue in Consulate General Munich                                          11
Management                                                                                12
   Performance Evaluations                                                                12
   Position Descriptions                                                                  13
   Motor Vehicle Safety Management Program                                                13
   Locally Employed Staff Handbook                                                        13
   Chancery As-Built Drawings                                                             14
Information Management                                                                    15
   Information Management Officer Position at Consulate General Frankfurt                 15
   Information Technology Support in Mission Germany                                      16
   Regionalization Efforts in Consulate General Frankfurt                                 16
   Future Plans for Consulate General Frankfurt                                           17
   Telephone Operations                                                                   17
Security                                                                                  19
  (b) (5)                                                                                 19
  (b) (5)                                                                                 19
  Safe Area at Consulate General Leipzig                                                  20
List of CFR Recommendations                                                               21
Principal Officials                                                                       23
Abbreviations                                                                             24
APPENDIX I: Status of 2011 Inspection Formal Recommendations                              25
APPENDIX II: Status of 2011 Inspection Informal Recommendations                           41




                                     iii
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Key Judgments
   •   The inspectors found improved coordination among embassy leadership, section chiefs,
       and senior officers at the constituent posts.

   •   Embassy Berlin has begun implementing a plan to significantly reduce staffs at
       Consulates General Dusseldorf, Hamburg, and Leipzig. Although in 2011 the Office of
       Inspector General (OIG) recommended that Consulate General Leipzig be closed, the
       compliance followup review (CFR) team accepts Embassy Berlin’s rationale for retaining
       the consulate general with a much reduced footprint.

   •   The Bureau of Overseas Buildings Operations (OBO) and Embassy Berlin had taken no
       action to sell the Hamburg office facility and identify suitable replacement commercial
       office space for Consulate General Hamburg.

   •   The reduction of staff at Consulate General Leipzig has resulted in an underutilized office
       compound. The embassy needs to conduct a cost-benefit analysis of the current lease,
       building maintenance, local guard force and surveillance detection expenses, and the
       possible savings gained from relocating the consulate general to commercial office space.

   •   Embassy Berlin has not only complied with the recommendations to provide Equal
       Employment Opportunity (EEO) training for all employees but also made a concerted
       effort to demonstrate the mission leadership’s commitment to upholding EEO principles
       throughout Mission Germany.

All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need to be corrected.


The CFR took place in Washington, DC, between September 4 and 25, 2012; in Berlin,
Germany, between October 9 and 17 and October 25 and November 1, 2012; in Munich,
Germany, between October 15 and 17, 2012; in Frankfurt, Germany, between October 17 and
24, 2012; in Leipzig, Germany, on October 16, 2012; in Dusseldorf, Germany, on October 22,
2012; and in Hamburg, Germany, on October 23, 2012. (b) (6)

                                             conducted the inspection.




                                       1
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Background
        Mission Germany, comprising the embassy and its consulates general, is the largest U.S.
diplomatic presence in Europe. It reflects the strong cooperative relationship between the United
States and Germany on an array of international issues, including the continued presence of
nearly 50,000 U.S. troops on German soil; extensive commercial, academic, and other private
sector ties; and Germany’s increasingly influential role in the European Union, in general, and
the resolution of the euro crisis, in particular.

        Mission Germany’s priorities include expanding diplomatic, economic, and security
cooperation; promoting U.S. commercial interests; providing consular services to visa applicants
and approximately 185,000 U.S. citizens resident in Germany; and engaging in public outreach,
particularly to German youth born after the Cold War and Germany’s large Muslim population.

        Mission staff includes 756 U.S. direct-hire and 860 locally employed (LE) staff working
at the embassy and its five consulates general. Thirty U.S. agencies are represented. The
Departments of Defense, Homeland Security, and Commerce maintain large offices in the
mission. The ratio of Americans to LE staff is unusually high and results from the basing of 35
regional offices in Frankfurt. More than half of the mission staff is located at Consulate General
Frankfurt, which, with more than 900 employees, is larger than Embassy Berlin and most other
embassies and serves as a platform for management support throughout Europe, Africa, and the
Middle East.

         The CFR team reviewed Mission Germany’s implementation of all formal and informal
recommendations in the 2011 OIG inspection report and its security annex. In particular, the
inspectors focused on the recommendations to improve coordination and communication
between the embassy and the consulates general. The inspectors found greatly improved
coordination among embassy leadership, section chiefs, and senior officers at the constituent
posts. The CFR team also addressed implementation of the 2011 report recommendations to
downsize Consulates General Dusseldorf and Hamburg, to close Consulate General Leipzig, and
to sell the consulate building in Hamburg and relocate the office to suitably sized commercial
space.




                                        2
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Evaluation of Compliance
       The CFR team found that Embassy Berlin had complied with most of the formal and
informal recommendations from the 2011 inspection report. A CFR automatically closes all
formal and informal recommendations from the inspection, but these recommendations may be
reissued by the CFR, as appropriate.

        Of the 84 formal recommendations in the 2011 report, 33 were closed before the CFR,
and 51 were open. As a result of the CFR, 29 of the 33 recommendations closed before the CFR
remain closed and 4 were revised and reissued. Of the 51 open recommendations, 37 were
closed, and 14 were revised and reissued as a result of the CFR. Of the 24 informal
recommendations, 23 were closed by the CFR, and 1 was reissued (Informal Recommendation
19) as a formal recommendation.

        There were 36 formal recommendations issued in the security annex to the 2011
inspection report. Twenty-six were closed prior to the CFR. Of the 10 remaining formal
recommendations, 7 were closed by the CFR and 3 were revised and reissued. The 16 informal
recommendations are closed by this CFR.




                                      3
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Equal Employment Opportunity
        Mission Germany’s leadership has made great strides in demonstrating its commitment to
EEO principles and communicating that to all employees. It has provided EEO training for all
employees and specialized training for EEO counselors and locally employed EEO liaisons in
the mission. Information about EEO policies and procedures has been provided to all employees
and is posted prominently. The OIG CFR team found, however, that there is still confusion
among employees in distinguishing whether workplace conflict issues fall under EEO definitions
of discrimination against a protected group or whether the particular complaint may simply be a
case of interpersonal friction within the workplace. In 2011, representatives from the Office of
Civil Rights conducted the employee EEO training. In an effort to emphasize the need for
reporting harassing behavior, the difference between discrimination against a protected group
and a workplace conflict that does not involve a member of a protected group may not have been
made clear. Procedures posted on mission intranet sites for dealing with workplace conflict
issues for LE staff members who are not American citizens are not clear. Mission Germany is
updating its LE staff handbook to outline appropriate procedures for seeking redress in cases of
workplace conflict.

Recommendation CFR 1: Embassy Berlin, in coordination with the Office of Civil Rights,
should outline procedures for channeling complaints that involve Equal Employment
Opportunity-defined discrimination and complaints regarding simple workplace conflict issues.
The procedures should be included in the updated locally employed staff handbook. (Action:
Embassy Berlin, in coordination with S/OCR)




                                       4
                          SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Downsizing of Staff in Consulates General Dusseldorf,
Hamburg, and Leipzig
        In the 2011 inspection report of Embassy Berlin, OIG recommended that Consulates
General Dusseldorf and Hamburg be significantly downsized, Hamburg’s underutilized U.S.
Government-owned property sold and replacement office space leased, and Consulate General
Leipzig closed at the earliest opportunity (see 2011 report Recommendations 2, 3, 4, 5, and 26).
OIG also recommended that Embassy Berlin implement a written plan to provide management
support, reporting, and public affairs coverage to Consulates General Dusseldorf and Hamburg
after the consulates general were downsized and Consulate General Leipzig closed. The CFR
team based their decisions to issue these recommendations upon a review of the three small
consulates general and an analysis of Embassy Berlin’s initial “ConGen Lite” cost study of
potential savings.

        Embassy Berlin concurred with OIG recommendations to drastically restructure the staffs
at Consulates General Dusseldorf and Hamburg, to sell the U.S. Government-owned property in
Hamburg, and to close the small consular operation in Leipzig. However, Embassy Berlin did
not agree to close Consulate General Leipzig but proposed, as an alternative to the OIG
recommendation, to significantly downsize the consulate general. Two months before the CFR
team’s arrival in Germany, on August 20, 2012, Embassy Berlin implemented a major reduction
in force of LE staff and planned the reprogramming or elimination of several U.S. direct-hire
positions at the three consulates general (see chart below). The grade of the consul general
position in Leipzig was reduced from FS-01 to FS-02.

         The CFR team determined that Embassy Berlin had met the intent of the OIG
recommendation to significantly downsize Consulates General Dusseldorf and Hamburg (2011
report Recommendations 2 and 3). Also, the CFR team noted that the argument made by
Embassy Berlin and Consulate General Leipzig to keep the consulate general open with a
drastically reduced staff was an acceptable alternative implementation of Recommendation 5.
Consulate General Leipzig and Embassy Berlin argued that the consulate general’s efforts, in
coordination with the Foreign Commercial Service in Berlin and Munich, to encourage more
U.S. corporations to set up business in the consular district; to encourage local German
businesses to partner with U.S. businesses; to maintain and grow local government, educational,
and social contacts on a routine basis; and to continue to promote American culture and values to
a section of the German public that for historical reasons had relatively little contact with, or
knowledge of, the United States justified maintaining a small footprint in the Leipzig consular
district.

                 Mission Germany’s Implementation of ConGen Lite Study*
           Before August 2012                      As of August 2012
           U.S. direct-hire LE staff       Total U.S. direct-hire LE staff                  Total
Consulate authorized        authorized             authorized       authorized
General    positions        positions              positions        positions
Dusseldorf         2              12        14             2               6                  8
Hamburg            3              13        16             2               6                  8
Leipzig            3              11        14             1               5                  6
* Does not include Foreign Commercial Service staff at Consulate General Dusseldorf
                                            5
                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Sale of U.S. Government-Owned Properties in Hamburg and Lease of Replacement Office
Space

        During the period between the publication of the 2011 inspection report and October
2012, no action had been taken by OBO and Embassy Berlin to sell the consulate building in
Hamburg and identify suitable commercial office space for the consulate general. The consulate
compound consists of approximately 56,000 square feet of office space valued at approximately
$12 million, with annual maintenance expenses of approximately $750,000 for a downsized staff
of eight. The annual cost for local guard services in Hamburg is approximately $703,000.
Relocating from a freestanding building to leased commercial office space would significantly
reduce the number of guards needed to protect the consulate general and, therefore, the annual
cost of local guard services. An OBO team visited Consulate General Hamburg immediately
after the CFR to conduct its initial assessment of plans to sell the compound. The CFR team also
learned that OBO contracted two independent U.S. appraisal firms to conduct separate fair
market appraisals of the U.S. Government-owned property. OBO also recently appointed a realty
specialist to assist the consulate general in identifying suitable replacement commercial office
space. OIG has revised and reissued its recommendation to track the progress of OBO and
Embassy Berlin’s efforts to sell the consulate general property and lease commercial office
space.

Recommendation CFR 2: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Berlin, should sell the U.S. Government-owned consulate general compound in
Hamburg and lease commercial office space suitable for the downsized consulate staff. (Action:
OBO, in coordination with Embassy Berlin)

Cost-Benefit Analysis of Facility at Consulate General Leipzig

       The reduction in staff at Consulate General Leipzig has resulted in excess leased office
space. Maintenance expenses for the Consulate General Leipzig compound exceed $300,000
annually, and local guard services cost more than $550,000 annually. The embassy has not
conducted a cost-benefit analysis of the current lease, building maintenance, local guard force
expenses, and the possible savings that might be gained from relocating the consulate general
from the compound provided by the local government at reduced lease costs to a smaller
commercial office space that could reduce annual building maintenance and local guard costs.

Recommendation CFR 3: Embassy Berlin, in coordination with the Bureau of Overseas
Buildings Operations, should conduct a cost-benefit analysis of leased office space, building
maintenance, and local guard costs at Consulate General Leipzig versus leasing smaller
commercial office space to determine whether a move of the facility would be cost effective.
(Action: Embassy Berlin, in coordination with OBO)

Plan for Management Support, Reporting, and Public Affairs Coverage for Downsized
Consulates General

         The CFR team reviewed each consulate general’s output for reporting and public affairs
activities for FYs 2010–12 and determined that much had changed since the OIG inspection in
2011. Reporting and public affairs activities had increased markedly at each consulate general.
Although Embassy Berlin has begun to implement a plan to reduce the size of the U.S. footprint
                                        6
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

in Consulates General Dusseldorf, Hamburg, and Leipzig and is developing a plan for
management support, it has yet to disseminate to the consulates general a plan for reporting and
public affairs priorities. This plan is especially important for Consulate General Leipzig, which
will lose its political/economic and public affairs officers in the downsizing initiative. During the
CFR, a public diplomacy expert was sent from the Office of the Under Secretary for Public
Diplomacy to review public diplomacy activities missionwide. The 2011 report recommendation
has been revised and reissued.

Recommendation CFR 4: Embassy Berlin should prepare and disseminate, as soon as
practicable, a written plan outlining how it will provide reporting and public diplomacy support
for the downsized Consulates General Dusseldorf, Hamburg, and Leipzig. (Action: Embassy
Berlin)




                                         7
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Consular Affairs
Pilot Passport Program

        Consulate General Frankfurt accepts and processes the majority of passport applications
from American citizen residents of and visitors to Germany. It is one of the largest passport
processing posts outside the United States. Frankfurt processed 12,695 passports in FY 2011.
Members of the U.S. military serving in Germany are able to enter Germany using military
identification cards under the Status of Forces Agreement between the United States and
Germany. Once settled in Germany, however, they need a U.S. tourist passport to visit
surrounding countries in Europe. In 2009 Mission Germany began a pilot program allowing U.S.
military passport acceptance agents to submit tourist passport applications from military
personnel in Germany directly to the National Passport Center for processing and return to the
military bases for distribution. In the event of a problem with an application or in an emergency,
an applicant could still apply for a passport at Consulate General Frankfurt. Currently about 50
percent of all passport applications in Germany are handled by the U.S. military acceptance
agents. This process has substantially reduced workload at Consulate General Frankfurt, which
has been able to reduce, by attrition, staffing by four LE staff positions and one officer position,
a substantial savings in resources.

        The program is still considered a pilot. The 2011 OIG inspection report recommended
that the Bureau of Consular Affairs make the program in Germany permanent. An agreement
between the Department of Defense and Department of State (Department) on the duties and
responsibilities of military passport acceptance agents worldwide was concluded in September
2012.

Recommendation CFR 5: The Bureau of Consular Affairs, in coordination with Embassy
Berlin, should make the pilot passport program in Germany permanent. (Action: CA, in
coordination with Embassy Berlin)




                                         8
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Innovative Practice: Domestic Issuance of Military Fee Passports Accepted Abroad

Innovative Practice: Domestic Issuance of Military Fee Passports Accepted Abroad

Issue: Consulate General Frankfurt has managed a successful pilot passport acceptance program
since 2009, whereby accredited U.S. military acceptance agents accept passport applications
from military personnel on bases in Germany and send them directly to the National Passport
Center in the United States for processing and return to the bases for distribution. The consulate
general is no longer an intermediary in the process unless there is a complication with the
application or an emergency. Consulate staff provides training and guidance, as necessary, to the
agents. The consular section in Consulate General Frankfurt has reduced both LE and officer
staff as a result of this pilot program.

The program’s success and demonstrated savings in personnel costs indicate it could be
applicable to other posts with substantial U.S. military assets. The recent conclusion of a formal
agreement between the Departments of Defense and State about the roles and responsibilities of
acceptance agents should facilitate the program’s expansion to other countries.

Response: The program has demonstrated its success. Approximately 50 percent of passport
applications are now forwarded by acceptance agents in Germany directly to the National
Passport Center for processing. By one estimate, since the beginning of the program,
approximately 30,000 applications have been handled successfully in this way.

Result: By expanding the program to other countries where there are large U.S. military
facilities, the reduction in the overseas passport workload could result in substantial savings for
the Department in personnel and processing costs abroad.




                                         9
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Innovative Practice: Establishing Consular Systems Connectivity at Evacuation Points

Innovative Practice: Establishing Consular Systems Connectivity at Evacuation Points

Issue: Consulate General Frankfurt set up a link at Frankfurt’s airport to provide consular
officers access to consular databases to assist evacuees from crisis posts. This process was first
used for the 2012 evacuation of Tunis.

Evacuees often arrive without documents, funds, or identification. Before the establishment of
this data link, special permission was needed from German authorities to allow the evacuee to
enter Germany to visit Consulate General Frankfurt and apply for replacement passports and
financial aid. This process was time consuming and required a German escort and a parole for
each evacuee.

Response: The information program officer and consular employees teamed up to establish an
Internet link at the airport where the consular officers and staff can access Department consular
systems to confirm an evacuee’s identity, process new documents, and provide other assistance
as needed. It includes Wi-Fi so that evacuees can communicate directly with family and others
via the Internet. This link is located at the terminal gate where evacuation aircraft usually arrive.
Other temporary assistance such as supplies and beds are also made available at that site. When
the link is not in service at the airport, it is stored at the consulate general to ensure the integrity
of the equipment. Estimated cost of setting up the link was $6,000.

Result: This link allows evacuees one-stop shopping for services they need to move on to their
final evacuation destination. The German authorities are pleased because they do not need to tie
up resources escorting the evacuees to the U.S. consulate general. Consular staff can provide
quicker and more customer friendly service at the airport.

Consular Windows at Consulate General Munich

        Consulate General Munich’s consular section has five interview windows and one cashier
window for all its consular functions. Because of the demand for services, the section must
manage its nonimmigrant visa and American citizens services workload with flexibility to make
maximum use of the available windows. However, the section limits the number of American
citizen clients it can see on some days because of the lack of windows and does not have the
capacity to expand nonimmigrant visa services. Officers and LE staff frequently must log off
computers and step aside when another staff member needs a window. This practice is inefficient
and limits productivity. The demand for services has outgrown the original design. Fortunately,
there is sufficient space in the hardline to provide one additional window with minimal change
by reducing the size of the cashier booth, which is larger than needed. If workload increases in
the future, the section may need a second additional window, which would involve more
extensive renovations and additional waiting room space to accommodate more applicants. The
existing cost estimate for proposed renovations is outdated.

Recommendation CFR 6: The Bureau of Overseas Buildings Operations, in coordination with
the Bureau of Consular Affairs and Embassy Berlin, should fund and renovate the consular
workspace at Consulate General Munich to provide additional interview capacity. (Action: OBO,
in coordination with CA and Embassy Berlin)
                                            10
                          SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED
(b) (5)




          Recommendation CFR 7: (b) (5)




                                             11
                                 SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Management
Performance Evaluations

         In the 2011 inspection report, OIG recommended that Embassy Berlin establish and
enforce procedures to provide timely completion of LE staff performance evaluations and
include this responsibility in supervisors’ work requirements and evaluations. The CFR team
found that the human resources (HR) office has an effective reminder system to alert supervisors
to prepare annual employee performance reviews. The HR office also informs Mission Germany
employees of the importance of preparing evaluations in a timely manner through missionwide
announcements and reminders at country team meetings. Despite those efforts, late performance
evaluations continue to be a problem. The mission is not complying with Department guidance
(State 168910 dated June 17, 2003, and State 95290 dated September 19, 2012). The August
2009 Locally Employed Staff Performance Management Policy Guidebook (page 63) also states
that if an employee performance review is not submitted in final to the HR office within 30
calendar days after the last day of the evaluation period, then the HR office must provide to the
appropriate agency head, deputy chief of mission, or ambassador a memorandum listing the
rater, reviewer, or employee responsible for the late report. Furthermore, the HR office should
continue to issue the memorandum every 30 calendar days until the responsible party submits the
evaluation in final. The HR office is not providing such a memorandum to the appropriate
agency head, deputy chief of mission, or ambassador. Management may also apply additional
internal controls that would increase the likelihood that evaluations are submitted on time. For
example, the mission may choose not to sign or release an American supervisor’s departure
checkout list or airline tickets until all required evaluations are submitted to the HR office and
reflect in the supervisor’s appraisal his or her failure to complete performance evaluations in a
timely manner.

Recommendation CFR 8: Embassy Berlin should require its human resources office to provide
a monthly memorandum listing late performance evaluations and the raters, reviewers, or
employees responsible for the late report to the appropriate agency head, deputy chief of mission,
or ambassador. (Action: Embassy Berlin)

        As noted in the previous inspection, Department guidelines do not specifically require
supervisors to complete performance evaluations for eligible family members. This lack of
guidance may have previously contributed to a number of eligible family members worldwide
not receiving evaluations. The Bureau of Human Resources has yet to issue policy guidance and
standard operating procedures for performance management of eligible family members. Upon
review of the draft CFR report, the Bureau of Human Resources, Office of Overseas
Employment, reported that it “is finalizing a new Interagency Eligible Family Member
Employment Guidebook, which includes a comprehensive chapter on eligible family member
performance management and procedures. The guidebook is intended for the HR professional
overseas and will be sent out for clearances by stakeholders by the end of CY 2012.”
Recommendation 46 in the previous inspection report is reissued.

Recommendation CFR 9: The Bureau of Human Resources should issue policy guidance and
standard operating procedures to Embassy Berlin for performance management of eligible family
members. (Action: DGHR)

                                       12
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Position Descriptions

        OIG recommended in the last inspection report that Embassy Berlin complete its
missionwide review of position descriptions for LE staff. The HR office at Consulate General
Frankfurt has responsibility for updating all position descriptions for Mission Germany. It
completed a review and updated position descriptions in fall 2011 for all LE staff members
except those working in the HR units at the chancery and consulates general. Embassy Berlin put
a hold on updating position descriptions for HR personnel until the embassy made a decision on
the results of a study it had requested on how to more effectively organize the mission’s HR
platform. To date, the position descriptions for LE staff in the human resources office have not
been updated. One employee’s position description has not yet been processed through the
Computer Assisted Job Evaluation software or signed by the employee and the rating officer.

Recommendation CFR 10: Embassy Berlin should review and revise, as appropriate, all staff
position descriptions for locally employed staff in the human resources office. (Action: Embassy
Berlin)

Motor Vehicle Safety Management Program

        OIG recommended in 2011 that Embassy Berlin implement the Department’s Motor
Vehicle Safety Management Program, which includes Smith System driver training, and monitor
all driver qualifications throughout the mission. Embassy Berlin has made progress but has not
fully implemented the program. Consulate General Munich is doing an excellent job providing
Smith System driver training, tracking all professional and incidental drivers, and verifying that
all drivers are medically fit. Consulate General Frankfurt now has a Smith System driver safety
trainer and tracks all chauffeurs and incidental drivers it has trained. It prioritized which
incidental drivers should receive training, including facilities maintenance personnel and Marine
security guards, all of whom subsequently received training. Consulate General Frankfurt still
must train a number of other incidental drivers. Many incidental drivers from other agencies
under chief of mission authority at Mission Germany, with the exception of Consulate General
Munich, are not being trained or tracked. Mission Germany does not routinely inform incidental
drivers of U.S. Government vehicles of the limits of liability insurance purchased by the mission,
nor do they brief the drivers on the potential personal liability the driver may incur, especially
those assigned to the consulates general.

Recommendation CFR 11: Embassy Berlin should fully implement the Department of State
Motor Vehicle Safety Management Program, including Smith System driver training and
monitoring of qualifications for all incidental drivers, and notify all incidental drivers of the
limits of U.S. Government liability coverage. (Action: Embassy Berlin)

Locally Employed Staff Handbook

        The 2011 OIG inspection team found that the handbook for LE staff had not been
updated since 2007 and recommended that it be updated and disseminated by January 2012
(Recommendation 42). The CFR team found the update was not yet complete and considerable
work remained. Absent accurate policies and procedures, American and LE staff could make
work decisions based on incorrect information, leading to confusion and improper personnel
actions. In April 2012, Embassy Berlin reported to OIG that the update was in progress.
                                       13
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Subsequently, the HR employee assigned to the project was tasked with higher priority
assignments, such as implementing consulate restructuring and attending to urgent personnel
issues. As of September 2012, 12 chapters of the 20-chapter handbook have not been completed.

Recommendation CFR 12: Embassy Berlin should complete and issue the locally employed
staff handbook. (Action: Embassy Berlin)

Chancery As-Built Drawings

         The 2011 OIG inspection team found that the embassy did not have a complete set of as-
built drawings of the Berlin chancery and recommended that OBO provide the embassy with a
complete set (Recommendation 57). Lack of these drawings can impair the ability of the
facilities staff to maintain and repair building systems. For example, at the time of the 2011
inspection, the embassy’s facilities manager cited the lack of as-built drawings as a problem in
addressing ventilation-related deficiencies.

        The CFR team confirmed that the chancery’s as-built drawings are still incomplete. In
September 2012, OBO reported that it would develop a scope of work and contract with an
architectural and engineering firm to produce the final drawings using the existing annotated
construction drawings and OBO library documentation. The estimated cost of this effort is
approximately $900,000. The recommendation is reissued.

Recommendation CFR 13: The Bureau of Overseas Buildings Operations, in coordination
with Embassy Berlin, should provide the embassy with a set of complete and accurate as-built
drawings of the chancery building. (Action: OBO, in coordination with Embassy Berlin)




                                       14
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Information Management
Information Management Officer Position at Consulate General Frankfurt

        The 2011 OIG inspection report recommended that the information management (IM)
officer position (position number 5523301) in Consulate General Frankfurt be eliminated, with
its functions realigned among the information technology (IT) staff. The report stated that having
two IM officers—one at Embassy Berlin and another at Consulate General Frankfurt—had
undermined communication and collaboration within the mission and with outside entities. OIG
placed a 1 FAM Hold on this position to preclude the position from being encumbered until the
recommendation was implemented or an alternative agreement was reached. However, Mission
Germany and the Bureau of European and Eurasian Affairs (EUR) responded that there was a
need for a senior IM position in Consulate General Frankfurt due to increased workload. The
CFR team agrees.

       The amount of workload and support functions performed by IT personnel in Consulate
General Frankfurt has increased since the 2011 OIG inspection. The current IT staff of 26
employees, 11 U.S. direct-hire and 15 LE staff members, excluding 14 mailroom clerks and
telephone operators in Consulate General Frankfurt, supports the unclassified and classified
operations for approximately 1,040 users. Consulate General Frankfurt IT personnel have
assumed responsibility for network support to Consulates General Hamburg, Leipzig, and
Dusseldorf—a function previously performed by Embassy Berlin. This responsibility includes all
support for desktop functions, server and network administration, radio program, telephone, and
mobile devices such as BlackBerry devices, laptops, and cell phones, as these three constituent
posts no longer have IT staff. Additionally, IT personnel visit Consulates General Hamburg,
Leipzig, and Dusseldorf on a quarterly basis or sooner if the need arises.

        IT personnel in Consulate General Frankfurt also provide routine desktop and server
support to Embassy Minsk and assist Embassy Cairo with its unclassified pouch operations by
providing a temporary processing hub. IT personnel also provide NexGen support (primary
network connectivity) for posts in EUR and the Bureaus of Near Eastern Affairs and South
Central Asian Affairs through a telecommunications hub. Consulate General Frankfurt is also the
pilot hub for the Department’s classified network (ClassNet) regionalization project: an effort to
consolidate IT resources and services for the Department’s ClassNet into data center locations to
allow greater economies of scale for global IT resources. The scope of work and support to be
provided by IT personnel in Consulate General Frankfurt is unknown because the pilot has been
delayed to January 2013, but will initially require Consulate General Frankfurt to support two
locations: Embassies Zagreb and Bucharest. The CFR team’s review of related documentation
suggested potential support to 150 posts at full implementation.

        The CFR team noted that having two individuals holding the exact same title of IM
officer and the same responsibilities in their position descriptions in Mission Germany creates
ambiguity. A title change and clearer description of responsibilities are needed for the position in
Consulate General Frankfurt and to clarify customer service support provided to users internally
and externally at Mission Germany. During the inspection, the CFR team discussed this matter
with the visiting EUR executive director and with management at Consulate General Frankfurt
and Embassy Berlin. All parties agreed that clarification of the position title and responsibilities

                                       15
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

of the IM officer in Consulate General Frankfurt was warranted. Mission Germany and EUR
requested that the current 1 FAM Hold be lifted so the position can be placed on the bid list. In
order to lift the 1 FAM Hold, OIG requested that EUR and the Bureau of Human Resources
revise the position description to include an appropriate title and new position number and then
provide copies of the FSBid announcement and the new position description to OIG. A copy of
the new position description (position number 55233007) was forwarded to OIG on November
30, 2012. The current position description (position number 55233001) will be abolished upon
departure of the incumbent in summer 2013. OIG accepts the actions of EUR and the Bureau of
Human Resources as acceptable alternative implementation of the previous recommendation,
which is closed by this CFR.

Information Technology Support in Mission Germany

       The 2011 OIG inspection report made two recommendations regarding clarity on IT
support provided to the three small consulates general within Mission Germany. One
recommendation requested the development of a plan outlining IT support to be provided to
Consulate General Hamburg because its computer operator position was not filled after the
incumbent resigned. Another recommendation requested the development of standard operating
procedures for consultations and operation review visits by IT personnel to Consulates General
Leipzig and Dusseldorf.

         Since the inspection, Mission Germany has redistributed the responsibility for IT support
from Consulates General Hamburg, Leipzig, and Dusseldorf to Consulate General Frankfurt.
Consulate General Frankfurt IT management drafted a separate service-level agreement with
each consulate general that outlines services to be provided, provides details on consultation
visits, and explains the different levels of tiered support. The agreements, however, have not
been finalized. IT management at Consulate General Frankfurt is waiting for Embassy Berlin to
complete its comprehensive service-level agreement for missionwide management services to
ensure that the IT support services information contained in all agreements are in sync. Until
service-level agreements are completed, lack of clarity on expected IT support services continues
to exist, potentially affecting customer service.

Recommendation CFR 14: Embassy Berlin should finalize service-level agreements on
information technology support services provided by Consulate General Frankfurt to Consulates
General Dusseldorf, Hamburg, and Leipzig. (Action: Embassy Berlin)
       .
Regionalization Efforts in Consulate General Frankfurt

        During the 2011 OIG inspection, it was reported that there was lack of clarity on
expected services, resources, and cost centers to support the regionalization effort being
undertaken by Mission Germany. This lack of clarity included the Departmentwide ClassNet
regionalization project that is intended to regionalize classified operations at overseas posts. The
report recommended that a service-level agreement be developed between Mission Germany and
the Bureau of Information Resource Management outlining requirements to host and support the
Department’s regionalization programs. To date, a service-level agreement has not been
developed.


                                        16
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

        Consulate General Frankfurt was chosen to be one of the pilot hubs as part of the
ClassNet regionalization project. The effort is intended to regionalize classified operations at
overseas posts by consolidating IT resources and services into hub data center locations. The
project plan for the initiative states that the regionalization of classified services and resources
will enable the Department to create greater economies of scale and more flexible IT staffing for
the regional bureaus. However, IT personnel in Consulate General Frankfurt have not been
provided with information on staffing models, costs, service expectations, and metrics, or the
intended responsibilities of the consulate general to support the two pilot locations at Embassies
Zagreb and Bucharest. Without such information, Consulate General Frankfurt IT management
is unable to prepare and align its priorities to ensure adequate support will be provided to all its
current and future users.

Recommendation CFR 15: The Bureau of Information Resource Management, in coordination
with Embassy Berlin and Consulate General Frankfurt, should implement service-level
agreements for the ClassNet regionalization project that outlines expected services, staffing
models, costs, performance metrics, and the responsibilities of each involved entity. (Action:
IRM, in coordination with Embassy Berlin and CG Frankfurt)

Future Plans for Consulate General Frankfurt

        Consulate General Frankfurt is becoming a regional hub, with its role still evolving as
more support functions for the region are housed there. However, many of its functions could be
seen as duplicative of those that could be performed by the Regional Information Management
Center Frankfurt, which provides on-the-ground computer, telephone, radio, and emergency
telecommunication assistance to posts. A review of Regional Information Management Center
operations is currently being conducted by another OIG inspection team.

        Further, with the bulk of Mission Germany IT support activities occurring at Consulate
General Frankfurt, the placement of the IM officer position at Embassy Berlin and the embassy’s
current IT staffing levels could be questioned. As mentioned previously, Consulate General
Frankfurt is assuming increasing responsibilities from Embassy Berlin to support Mission
Germany and other posts, as well as to support regionalization efforts. Embassy Berlin provides
unclassified and classified support to its customers within the embassy’s three buildings,
including mobile computing, telephone, radio, and mailroom support functions. A full
assessment of the overall IT staffing model of Mission Germany was outside the scope of this
CFR; however, the inspectors would support such an exercise by EUR.

Telephone Operations

Embassy Berlin Residential Telephone Landlines

         A residential telephone policy for Embassy Berlin has not been completed and approved
as informally recommended in the 2011 OIG inspection report, where it was noted that
employees did not understand why they were required to have and pay for their residence
landlines and why the service is limited to a specific vendor. Post management was not aware of
the concerns of embassy personnel during the 2011 OIG inspection but now agrees that a policy
is needed. A management notice was drafted during the course of the CFR; however, the notice
still lacks information on options for telephone services and vendors and details on the associated
                                        17
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

costs. The regional security officer and IM officer at Embassy Berlin are finalizing the notice, at
which time it will be submitted to the emergency action committee for review.

Recommendation CFR 16: Embassy Berlin should issue a management notice to explain the
residential telephone policy. (Action: Embassy Berlin)

Consulate General Frankfurt Telephone Frame Rooms

         Consulate General Frankfurt has not consolidated its telephone rooms to eliminate
redundancy and nonfunctioning equipment, nor has it corrected climate control issues, as
recommended in the 2011 OIG inspection report. The report noted equipment was distributed in
six frame rooms, making maintenance and support problematic. In addition, much of the
documentation necessary to understand and support the network was never prepared or provided
to staff.

        Consulate General Frankfurt told the inspectors that the Bureau of Information Resource
Management’s Foreign Posts Telephone division was currently engineering and ordering
equipment to consolidate the telephone systems. The funding for the equipment was provided by
EUR, with installation scheduled for FY 2014. Consulate General Frankfurt, however, will be
unable to complete the consolidation until design details are completed to determine which
telephone rooms will be eliminated. Once the consolidation is completed, personnel will be able
to evaluate the climate control requirements and make necessary corrections. With redundant
equipment and inadequate climate controls, Mission Germany’s telephone operations could be
severely affected.

Recommendation CFR 17: Embassy Berlin should consolidate Consulate General Frankfurt’s
multiple telephone rooms based on developed designs and fulfill the climate control
requirements for those remaining telephone rooms. (Action: Embassy Berlin)




                                       18
                           SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


    Security
    Marine Security Guard Quarters Berlin

            Morale within the Marine security guard detachment has improved dramatically since the
    arrival of the new detachment commander in January 2012. The unsatisfactory condition of the
    Marine security guard residence, however, is still a problem. Given the age, nature, and historical
    limitations of the facility, maintenance issues continuously plague the residence. OBO has
    preliminary plans to renovate space in the U.S. Government-owned Clayallee annex in FY 2014
    to create a new Marine security guard residence. This planned renovation is projected to be
    completed in late summer 2016. Recommendation 59 from the previous report is reissued.

    Recommendation CFR 18: The Bureau of Overseas Buildings Operations, in coordination
    with Embassy Berlin, should implement plans to convert a portion of the Clayallee building into
    the Marine security guard detachment quarters. (Action: OBO, in coordination with Embassy
    Berlin)

            Recommendation 10 of the classified annex to the 2011 inspection report noted that
    repairing and maintaining the residence was a constant process, with frequent delays in
    completing the repairs. The current lease stipulates that the property owner make all major
    repairs. The embassy general services office forwards work requests to a third-party property
    management firm and then tracks the request. However, the general services office has little
    influence in expediting the work, and important maintenance problems, such as lack of heating,
    languish. Compounding the issue, the property owner wants to convert the building into
    multiunit apartments and, therefore, has indicated that he does not wish to extend the last option
    year of the current lease.

    Recommendation CFR 19: Embassy Berlin, in coordination with the Bureau of Overseas
    Buildings Operations, should relocate the Marine security guard detachment residence to a new
    short-term leased residence with adequate facilities for the time period between the end of the
    current lease and the completion of the Clayallee annex renovation. (Action: Embassy Berlin, in
    coordination with OBO)
(b) (5)




                                           19
                               SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED
(b) (5)




          Recommendation CFR 20: (b) (5)




(b) (5)




          Recommendation CFR 21: (b) (5)




                                            20
                                SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of CFR Recommendations
Recommendation CFR 1: Embassy Berlin, in coordination with the Office of Civil Rights,
should outline procedures for channeling complaints that involve Equal Employment
Opportunity-defined discrimination and complaints regarding simple workplace conflict issues.
The procedures should be included in the updated locally employed staff handbook. (Action:
Embassy Berlin, in coordination with S/OCR)

Recommendation CFR 2: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Berlin, should sell the U.S. Government-owned consulate general compound in
Hamburg and lease commercial office space suitable for the downsized consulate staff. (Action:
OBO, in coordination with Embassy Berlin)

Recommendation CFR 3: Embassy Berlin, in coordination with the Bureau of Overseas
Buildings Operations, should conduct a cost-benefit analysis of leased office space, building
maintenance, and local guard costs at Consulate General Leipzig versus leasing smaller
commercial office space to determine whether a move of the facility would be cost effective.
(Action: Embassy Berlin, in coordination with OBO)

Recommendation CFR 4: Embassy Berlin should prepare and disseminate, as soon as
practicable, a written plan outlining how it will provide reporting and public diplomacy support
for the downsized Consulates General Dusseldorf, Hamburg, and Leipzig. (Action: Embassy
Berlin)

Recommendation CFR 5: The Bureau of Consular Affairs, in coordination with Embassy
Berlin, should make the pilot passport program in Germany permanent. (Action: CA, in
coordination with Embassy Berlin)

Recommendation CFR 6: The Bureau of Overseas Buildings Operations, in coordination with
the Bureau of Consular Affairs and Embassy Berlin, should fund and renovate the consular
workspace at Consulate General Munich to provide additional interview capacity. (Action: OBO,
in coordination with CA and Embassy Berlin)

Recommendation CFR 7: (b) (5)



Recommendation CFR 8: Embassy Berlin should require its human resources office to
provide a monthly memorandum listing late performance evaluations and the raters, reviewers,
or employees responsible for the late report to the appropriate agency head, deputy chief of
mission, or ambassador. (Action: Embassy Berlin)

Recommendation CFR 9: The Bureau of Human Resources should issue policy guidance and
standard operating procedures to Embassy Berlin for performance management of eligible family
members. (Action: DGHR)

Recommendation CFR 10: Embassy Berlin should review and revise, as appropriate, all staff
position descriptions for locally employed staff in the human resources office. (Action: Embassy
Berlin)
                                                21
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation CFR 11: Embassy Berlin should fully implement the Department of State
Motor Vehicle Safety Management Program, including Smith System driver training and
monitoring of qualifications for all incidental drivers, and notify all incidental drivers of the
limits of U.S. Government liability coverage. (Action: Embassy Berlin)

Recommendation CFR 12: Embassy Berlin should complete and issue the locally employed
staff handbook. (Action: Embassy Berlin)

Recommendation CFR 13: The Bureau of Overseas Buildings Operations, in coordination
with Embassy Berlin, should provide the embassy with a set of complete and accurate as-built
drawings of the chancery building. (Action: OBO, in coordination with Embassy Berlin)

Recommendation CFR 14: Embassy Berlin should finalize service-level agreements on
information technology support services provided by Consulate General Frankfurt to Consulates
General Dusseldorf, Hamburg, and Leipzig. (Action: Embassy Berlin)

Recommendation CFR 15: The Bureau of Information Resource Management, in
coordination with Embassy Berlin and Consulate General Frankfurt, should implement service-
level agreements for the ClassNet regionalization project that outlines expected services, staffing
models, costs, performance metrics, and the responsibilities of each involved entity. (Action:
IRM, in coordination with Embassy Berlin and CG Frankfurt)

Recommendation CFR 16: Embassy Berlin should issue a management notice to explain the
residential telephone policy. (Action: Embassy Berlin)

Recommendation CFR 17: Embassy Berlin should consolidate Consulate General Frankfurt’s
multiple telephone rooms based on developed designs and fulfill the climate control
requirements for those remaining telephone rooms. (Action: Embassy Berlin)

Recommendation CFR 18: The Bureau of Overseas Buildings Operations, in coordination
with Embassy Berlin, should implement plans to convert a portion of the Clayallee building into
the Marine security guard detachment quarters. (Action: OBO, in coordination with Embassy
Berlin)

Recommendation CFR 19: Embassy Berlin, in coordination with the Bureau of Overseas
Buildings Operations, should relocate the Marine security guard detachment residence to a new
short-term leased residence with adequate facilities for the time period between the end of the
current lease and the completion of the Clayallee annex renovation. (Action: Embassy Berlin, in
coordination with OBO)

Recommendation CFR 20: (b) (5)




Recommendation CFR 21: (b) (5)




                                       22
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                     Name   Arrival Date

Ambassador                       Philip D. Murphy               08/2009
Deputy Chief of Mission          James D. Melville              08/2012
Consuls General
      Dusseldorf                 Steve Hubler                   08/2012
      Frankfurt                  Kevin Milas                    08/2011
      Hamburg                    Inmi Patterson                 09/2010
      Leipzig                    Mark Powell                    08/2011
      Munich                     William Moeller                08/2011

Chiefs of Sections:
  Management                     Frank Ledahawsky               09/2012
  Consular                       Karen L. Christensen           07/2011
  Political                      Robin Quinville                08/2011
  Economic                       Seth Winnick                   08/2010
  Public Affairs                 Peter Claussen                 08/2009
  Regional Security              Robert Barton                  06/2010
Other Agencies:
  Foreign Agricultural Service   Paul Spencer-Macgregor         08/2010
  Department of Defense          Col. Gregory J. Broecker       08/2011




                                      23
                          SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
(b) (5)


CFR              Compliance followup review

ClassNet         Classified network

Department       U.S. Department of State

EEO              Equal Employment Opportunity

EUR              Bureau of European and Eurasian Affairs

FAH              Foreign Affairs Handbook

HR               Human resources

IM               Information management

IT               Information technology

LE               Locally employed (staff)

OBO              Bureau of Overseas Buildings Operations

OIG              Office of Inspector General




                            24
                SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


APPENDIX I: Status of 2011 Inspection Formal
Recommendations
Recommendation 1: Embassy Berlin should establish and implement a schedule of regular
visits by the deputy chief of mission and embassy section chiefs to the consulates general.
(Action: Embassy Berlin)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 2: Embassy Berlin, in coordination with the Bureau of European and
Eurasian Affairs and the Bureau of Human Resources, should downsize Consulate General
Dusseldorf with a view toward reducing annual operating expenses by $1 million. (Action:
Embassy Berlin, in coordination with EUR and DGHR)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 3: Embassy Berlin, in coordination with the Bureau of European and
Eurasian Affairs and the Bureau of Human Resources should substantially downsize Consulate
General Hamburg with a view toward achieving savings of $2 million annually in operating
expenses. (Action: Embassy Berlin, in coordination with EUR and DGHR)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 4: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Berlin and the Bureau of European and Eurasian Affairs, should sell the U.S.
Government-owned consulate general offices in Hamburg and lease office space for Consulate
General Hamburg. (Action: OBO, in coordination with Embassy Berlin and EUR)

       Pre-CFR Status: Open.

       CFR Findings: Revised and reissued as Recommendation CFR 2.

Recommendation 5: The Bureau of European and Eurasian Affairs, in coordination with
Embassy Berlin and the Under Secretary for Management should develop and implement a plan
to close Consulate General Leipzig at the earliest practical opportunity. (Action: EUR, in
coordination with Embassy Berlin and M/PRI)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team reviewed and accepted Embassy Berlin’s argument, as
       acceptable alternative implementation, to keep Consulate General Leipzig open with a
                                      25
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       much reduced staff. A new recommendation was also issued to conduct a cost-benefit
       analysis regarding the relocation of the diminished staff to more suitable commercial
       office space.

Recommendation 6: Embassy Berlin should prepare a written plan outlining how it will provide
management support and reporting and public affairs coverage when Consulate General
Leipzig is closed and Consulates General Dusseldorf and Hamburg are downsized. (Action:
Embassy Berlin)

       Pre-CFR Status: Open.

       CFR Findings: Revised and reissued as Recommendation CFR 4.

Recommendation 7: Embassy Berlin, in coordination with the Bureau of Human Resources,
should eliminate position 10073002, FP-06, office management specialist when the incumbent's
tour is completed in 2013. (Action: Embassy Berlin, in coordination with DGHR)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 8: Embassy Berlin, in coordination with the Bureau of European and
Eurasian Affairs and the Bureau of Human Resources, should abolish information management
officer position number 55233001 in Consulate General Frankfurt and realign the information
management staffing in Frankfurt. (Action: Embassy Berlin, in coordination with EUR and
DGHR)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team accepted the mission’s argument to retain the position
       due to the increased responsibilities of duties of the IT section at Consulate General
       Frankfurt. EUR revised the position description (position number 55233007) and title
       (Information Management Officer- Consulate) to accurately reflect the duties and
       responsibilities of this position. An electronic copy of the new position description was
       provided to OIG on November 30, 2012. The team accepted the action as alternative
       implementation of Recommendation 8. The recommendation is closed.

Recommendation 9: Embassy Berlin, in coordination with the Bureau of European and
Eurasian Affairs and the Bureau of Human Resources, should reprogram or eliminate, upon the
departure of the incumbent, the FS-01 financial management officer position in Consulate
General Frankfurt. (Action: Embassy Berlin, in coordination with EUR and DGHR)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.




                                       26
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Recommendation 10: The Bureau of Consular Affairs, in coordination with the Bureau of
European and Eurasian Affairs and the Bureau of Human Resources, should eliminate two mid-
level consular officer positions from the consular section in Frankfurt and create a plan for how
the grade levels of the remaining positions should be realigned. (Action: CA, in coordination
with EUR and DGHR)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 11: The Bureau of Consular Affairs, in coordination with the Bureau of
Human Resources should eliminate an entry-level officer position from the consular section in
Frankfurt. (Action: CA, in coordination with DGHR)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 12: The Bureau of International Information Programs, in coordination with
the Bureau of European and Eurasian Affairs and the Bureau of Human Resources, should
review and transfer the information resource officer position in Berlin to another embassy where
a realigned country support portfolio would be a better use of that position. (Action: IIP, in
coordination with EUR and DGHR)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 13: Embassy Berlin should revise and implement its professional
development program for first- and second-tour personnel with a view toward creating a more
systematic program and increasing participation by officers and specialists who work outside the
chancery and at the consulates general. (Action: Embassy Berlin)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 14: Embassy Berlin should reorganize the political section into three coherent
units: internal, external, and political-military, and assign the deputy political counselor to head
one of them. (Action: Embassy Berlin)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 15: Embassy Berlin should name an officer to coordinate missionwide
political reporting and require that officer to hold monthly strategy sessions that include officers
and staff from the consulates general. (Action: Embassy Berlin)
                                        27
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 16: Embassy Berlin should centralize Internet Web site management at the
embassy, with the constituent posts providing content but with a central webmaster unit being
responsible for the technical proficiency of the content management system and servicing
multiple Web sites. (Action: Embassy Berlin)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 17: Embassy Berlin should require security and public diplomacy officers to
prepare a joint report on steps that could be taken to facilitate holding public diplomacy
programs at the embassy and constituent posts. (Action: Embassy Berlin)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 18: The Bureau of Consular Affairs, in coordination with Embassy Berlin,
should provide sufficient funding to enable the minister-counselor for consular affairs to visit
Consulates General Frankfurt and Munich four times per year for several days at a time on each
visit. (Action: CA, in coordination with Embassy Berlin)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 19: Embassy Berlin should schedule monthly videoconferences to coordinate
consular operations and promote standardized operations in Mission Germany. (Action: Embassy
Berlin)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 20: Embassy Berlin, in coordination with the Bureau of Consular Affairs,
should organize and fund a countrywide consular conference on an annual basis. (Action:
Embassy Berlin, in coordination with CA)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.




                                       28
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Recommendation 21: Embassy Berlin should direct the assistant regional security officer
investigator in Consulate General Frankfurt to create a plan for quarterly visits to Berlin and
Munich to establish working relationships and promote understanding of the function. (Action:
Embassy Berlin)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 22: Embassy Berlin should direct the assistant regional security officer
investigator in Consulate General Frankfurt and the relevant fraud prevention staff to conduct
fraud prevention training at least once per year in Berlin, Frankfurt, and Munich. (Action:
Embassy Berlin)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 23: Embassy Berlin should issue standard operating procedures specifying
the responsibilities of the duty officers in Hamburg, Dusseldorf, and Leipzig to respond to
requests for emergency services by American citizens. (Action: Embassy Berlin)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 24: Embassy Berlin should develop a comprehensive plan for consular
employees in Berlin, Frankfurt, and Munich to include visits to German state officials and
institutions in combination with prison visits and outreach programs. (Action: Embassy Berlin)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 25: Embassy Berlin should allocate sufficient travel funds to consular
sections to allow for travel, including extended trips, to visit American citizen prisoners as
prescribed by Department regulations. (Action: Embassy Berlin)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 26: Embassy Berlin, in coordination with the Bureau of Consular Affairs,
should close the small consular operation in Consulate General Leipzig. (Action: Embassy
Berlin, in coordination with CA)

       Pre-CFR Status: Open.

                                        29
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 27: Embassy Berlin should assign a consular employee as a media
coordinator and create a missionwide consular media program, with regular input from all
consular sections in Mission Germany. (Action: Embassy Berlin)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 28: Embassy Berlin should provide personal digital assistants for employees
in the American citizens services units of the consular sections and for the managers of those
sections in Berlin, Frankfurt, and Munich. (Action: Embassy Berlin)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 29: The Bureau of Overseas Buildings Operations, in coordination with the
Bureau of Consular Affairs and Embassy Berlin should fund and replace the interview windows
in the nonimmigrant visa unit in Berlin. (Action: OBO, in coordination with CA and Embassy
Berlin)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 30: Embassy Berlin, in coordination with the Bureau of Consular Affairs,
should fund and install a new, modern microphone system for the nonimmigrant visa unit in
Berlin. (Action: Embassy Berlin, in coordination with CA)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 31: Embassy Berlin should provide guidance to consular managers in Berlin
to ensure that job vacancy announcements for locally-hired positions properly reflect the
language requirements of those jobs. (Action: Embassy Berlin)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 32: Embassy Berlin should coordinate with Consulate General Frankfurt to
create a new roster system for "designated control officers" that includes all employees who
serve as duty officers. Alternatively, Embassy Berlin should create and fund an eligible family
member position to perform this duty. (Action: Embassy Berlin)

                                       30
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 33: The Bureau of Consular Affairs, in coordination with Embassy Berlin,
should make the passport pilot program in Germany permanent and consider expanding it to
other posts with significant military passport workloads. (Action: CA, in coordination with
Embassy Berlin)

       Pre-CFR Status: Open.

       CFR Findings: Revised and reissued as Recommendation CFR 5.

Recommendation 34: Embassy Berlin, in coordination with the Bureau of Consular Affairs
and the Bureau of Diplomatic Security, should require the consular section and regional security
office in Frankfurt to produce standard operating procedures for the fraud prevention unit in the
consular section and the assistant regional security officer-investigator. (Action: Embassy Berlin,
in coordination with CA)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 35: Embassy Berlin should require that the consular managers in Consulate
General Frankfurt work out an appointment schedule on busy days that will allow consular
officers to take their lunch breaks at normal times. (Action: Embassy Berlin)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 36: The Bureau of Overseas Buildings Operations, in coordination with the
Bureau of Consular Affairs and Embassy Berlin, should fund and construct two additional
consular windows in the consular section in Munich. (Action: OBO, in coordination with CA and
Embassy Berlin)

       Pre-CFR Status: Open.

       CFR Findings: Revised and reissued as Recommendation CFR 6.

Recommendation 37: Embassy Berlin should develop and implement a program to mentor and
support officers with management responsibility in Consulates General Dusseldorf, Hamburg,
and Leipzig. (Action: Embassy Berlin)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

                                       31
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Recommendation 38: The Office of Medical Services, in coordination with the Bureau of
Resource Management, the Office of the Legal Adviser, and Embassy Berlin, should issue
standard operating procedures on the handling and protection of medical documents. (Action:
MED, in coordination with the RM, L, and Embassy Berlin)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 39: Embassy Berlin should conduct a management review of cashiering
operations to determine whether cashiering services can be reduced and whether outsourcing
accommodation exchange and using automated teller machines would be beneficial and cost
effective. (Action: Embassy Berlin)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 40: Embassy Berlin should establish and enforce procedures that will
provide timely completion of performance evaluations for all locally employed staff, including
holding supervisors formally accountable for this responsibility in their work requirements and
evaluations. (Action: Embassy Berlin)

       Pre-CFR Status: Open.

       CFR Findings: Revised and reissued as Recommendation CFR 8.

Recommendation 41: Embassy Berlin should complete its missionwide review of all local
staff position descriptions, revise those that are inaccurate, and reclassify the affected positions.
(Action: Embassy Berlin)

       Pre-CFR Status: Closed.

       CFR Findings: Revised and reissued as Recommendation CFR 10.

Recommendation 42: Embassy Berlin, in coordination with the Bureau of Human Resources,
should update its locally employed staff handbook to reflect current conditions of employment,
ethical standards, and disciplinary processes, including terminations, by January 1, 2012.
(Action: Embassy Berlin, in coordination with DGHR)

       Pre-CFR Status: Open.

       CFR Findings: Revised and reissued as Recommendation CFR 12.

Recommendation 43: Embassy Berlin should develop and implement a regular schedule of
visits by human resources staff to Consulates General Dusseldorf, Hamburg, Leipzig, and
Munich. (Action: Embassy Berlin)

                                        32
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 44: Embassy Berlin should modify a human resources assistant position in
Berlin and another in Frankfurt to include global employment advisor responsibilities. (Action
Embassy Berlin)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 45: Embassy Berlin should follow the same guidelines for preparing,
tracking, and sending reminder notices for eligible family member evaluations as for locally
employed staff. (Action: Embassy Berlin)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 46: The Bureau of Human Resources should issue policy guidance and
standard operating procedures to Embassy Berlin for performance management of eligible family
members. (Action: DGHR)

       Pre-CFR Status: Open.

       CFR Findings: Revised and reissued as Recommendation CFR 9.

Recommendation 47: Embassy Berlin, in coordination with the Bureau of European and
Eurasian Affairs, should request an exception for eligible family members in Germany to
Department regulations limiting cost-of-living allowances to Foreign Service officers. (Action:
Embassy Berlin, in coordination with EUR)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 48: Embassy Berlin, in coordination with the Bureau of Human Resources,
the Bureau of Resource Management, and the Office of the Legal Adviser, should issue an
authoritative ruling on whether it is possible to provide the employer portion of mandatory
medical insurance in a way that distinguishes it from salary income. (Embassy Berlin, in
coordination with DGHR, RM, and L)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.


                                       33
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 49: Embassy Berlin should follow Department regulations regarding the
payment of premium compensation to eligible specialists and entry-level officers and should
issue a management notice to that effect. (Embassy Berlin)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 50: Embassy Berlin should develop and implement a plan that requires
Consulate General Frankfurt employees to sign residential inventories in a timely manner.
(Action: Embassy Berlin)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 51: Embassy Berlin should implement a plan that provides the Consulate
General Frankfurt receiving clerk with access to procurement data that enables proper receiving
of goods and services. (Action: Embassy Berlin)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 52: Embassy Berlin should develop and implement a plan to provide
assistance to the smaller consulates general to ensure that inventories are recorded and reconciled
by different mission staff members. (Action: Embassy Berlin)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 53: Embassy Berlin should develop and implement a procedure so that the
procurement office is notified of final payments in order to properly close out purchase orders.
(Action: Embassy Berlin)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 54: Embassy Berlin should develop and implement a plan to ensure
missionwide adherence to the Department's limit of 10 hours for a driver's daily tour of duty.
(Action: Embassy Berlin)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

                                       34
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 55: Embassy Berlin should update and publish its vehicle policy
memorandum. (Action: Embassy Berlin)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 56: Embassy Berlin should require Consulate General Frankfurt to store its
expendable automotive parts and supplies securely to prevent theft. (Action: Embassy Berlin)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 57: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Berlin, should provide the embassy with complete and accurate as-built drawings of the
chancery building. (Action: OBO, in coordination with Embassy Berlin)

       Pre-CFR Status: Open.

       CFR Findings: Revised and reissued as Recommendation CFR 13.

Recommendation 58: Embassy Berlin should design and adopt means to facilitate greater
workspace privacy, particularly for the human resources office. (Action: Embassy Berlin)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 59: Embassy Berlin, in coordination with the Bureau of Overseas Buildings
Operations, should develop and implement a plan to convert the top floor of the Clayallee
building into the Marine security guard detachment quarters. (Action: Embassy Berlin, in
coordination with OBO)

       Pre-CFR Status: Open.

       CFR Findings: Revised and reissued as Recommendation CFR 18.

Recommendation 60: Embassy Berlin should implement the Department's Motor Vehicle
Safety Management Program, to include Smith System driver training and monitoring all driver
qualifications, throughout the mission. (Action: Embassy Berlin)

       Pre-CFR Status: Open.

       CFR Findings: Revised and reissued as Recommendation CFR 11.

Recommendation 61: Embassy Berlin should implement a plan to monitor traffic violations
committed by employees and to administer appropriate training and corrective action to repeat
                                      35
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

offenders. (Action: Embassy Berlin)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 62: Embassy Berlin, in coordination with the Bureau of Overseas Buildings
Operations, should bring the Consulate General Frankfurt American citizen services waiting
room into compliance with fire egress standards. (Action: Embassy Berlin, in coordination with
OBO)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 63: Embassy Berlin should create and implement a detailed plan to provide
information management support to Consulate General Hamburg from Berlin, including how the
embassy will support routine services as well as emergencies. (Action: Embassy Berlin)

       Pre-CFR Status: Closed.

       CFR Findings: Revised and reissued as Recommendation CFR 14.

Recommendation 64: Embassy Berlin should create and implement standard operating
procedures for formal information management consultations and operational review visits by
Embassy Berlin and Consulate General Frankfurt personnel to Consulates General Leipzig and
Dusseldorf. (Action: Embassy Berlin)

       Pre-CFR Status: Open.

       CFR Findings: Revised and reissued as Recommendation CFR 14.

Recommendation 65: Embassy Berlin should develop information technology training plans
for the locally employed computer operators at Consulates General Leipzig and Dusseldorf.
(Action: Embassy Berlin)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 66: Embassy Berlin should develop, document, and implement a system
development life cycle process for locally developed applications. (Action: Embassy Berlin)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.


                                      36
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 67: Embassy Berlin should create and implement a standard operating
procedure for software developer contractor oversight and systems access control. (Action:
Embassy Berlin)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 68: Embassy Berlin, in coordination with the Bureau of Information
Resource Management, should obtain certification and accreditation for all locally developed
applications. (Action: Embassy Berlin, in coordination with IRM)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 69: The Office of Medical Services, in coordination with the Bureau of
Human Resources and the Bureau of Information Resource Management, should establish
criteria for collecting and storing personally identifiable information and medical data abroad.
(Action: MED, in coordination with DGHR and IRM)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 70: Embassy Berlin should establish and implement standard operating
procedures for the local information technology change control board and define the roles and
responsibilities of the consulates general. (Action: Embassy Berlin)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 71: Embassy Berlin, in coordination with the Bureau of European and
Eurasian Affairs and the Bureau of Information Resource Management, should develop and
implement a service-level agreement with the regionalization program owners. The agreement
should outline expected services, resources, and cost centers to support regionalization programs.
(Action: Embassy Berlin, in coordination with EUR and IRM)

       Pre-CFR Status: Open.

       CFR Findings: Revised and reissued as Recommendation CFR 15.

Recommendation 72: Embassy Berlin, in coordination with the Bureau of European and
Eurasian Affairs and the Bureau of Overseas Buildings Operations, should determine and fulfill
the climate control and power conditioning requirements for the Consulate General Frankfurt
information service center server room. (Action: Embassy Berlin, in coordination with EUR and
OBO)
                                       37
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 73: Embassy Berlin should fund and implement an emergency and
evacuation radio program. (Action: Embassy Berlin)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 74: Embassy Berlin should evaluate the emergency and evacuation radio
signal strength for Consulate General Munich and make appropriate enhancements. (Action:
Embassy Berlin)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 75: Embassy Berlin should develop and implement service-level goals for
consolidating telephone operations to ensure that the business requirements of the consulates
general are being satisfied. The service goals should assign responsibilities and detail after-hours
support, contingency plans, and familiarization training on consulate general requirements.
(Action: Embassy Berlin)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 76: Embassy Berlin, in coordination with the Bureau of Information
Resource Management, should perform an engineering study to establish requirements for
consolidating the multiple telephone rooms and eliminating redundant and non-functioning
telephone equipment. (Action: Embassy Berlin, in coordination with IRM)

       Pre-CFR Status: Open.

       CFR Findings: Revised and reissued as Recommendation CFR 17.

Recommendation 77: Embassy Berlin, in coordination with the Bureau of Overseas Buildings
Operations, should evaluate and fulfill the climate control requirements of each of Consulate
General Frankfurt's telephone equipment rooms to ensure proper temperature control. (Action:
Embassy Berlin, in coordination with OBO)

       Pre-CFR Status: Closed.

       CFR Findings: Revised and reissued as Recommendation CFR 17.


                                        38
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 78: Embassy Berlin, in coordination with the Bureau of Overseas Buildings
Operations, should evaluate the condition of the uninterruptible power supply systems, ensure
that they are operational, and schedule regular maintenance. (Action: Embassy Berlin, in
coordination with OBO)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 79: Embassy Berlin should discipline staff who violate the embassy's
antidiscrimination policies in accordance with the locally employed staff handbook. (Action:
Embassy Berlin)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 80: Embassy Berlin, in coordination with the Office of Civil Rights, should
request and fund training, on Equal Employment Opportunity and harassment issues to be
conducted by the Office of Civil Rights at the embassy and all consulates general. (Action:
Embassy Berlin, in coordination with S/OCR)

       Pre-CFR Status: Closed.

       CFR Findings: Revised and reissued as Recommendation CFR 1.

Recommendation 81: Embassy Berlin should require that meetings between the community
liaison officer and the deputy chief of mission, to discuss family advocacy issues, be held in
accordance with Department regulations. (Action: Embassy Berlin)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 82: Embassy Berlin, in coordination with the Office of Overseas Schools,
should request and attempt to negotiate relief from disproportionate U.S. Government payments
of (b)(5)(b)(6)                  capital assessment fees. (Action: Embassy Berlin, in
coordination with A)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 83: Embassy Berlin's financial management office should assume the role
and responsibilities of the embassy's designated billing office. (Action: Embassy Berlin)

       Pre-CFR Status: Closed.

                                       39
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 84: Embassy Berlin should develop and implement a plan that provides
adequate security and transportation for cashiers or employees who are acting in that capacity
while transporting cash. (Action: Embassy Berlin)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.




                                       40
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


APPENDIX II: Status of 2011 Inspection Informal
Recommendations
Informal Recommendation 1: Embassy Berlin should review the political section's subscription
expenses with a view toward reducing them by at least 50 percent.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 2: Embassy Berlin should require that the Ambassador meet
regularly with the staffs of the economic, global affairs, and political sections to discuss strategy
and provide guidance. Representatives from the Department of Defense, the Foreign Commercial
Service, and other agencies should be invited to participate as appropriate.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 3: Embassy Berlin should review how daily political and economic
"squib" reports are produced with a view toward simplifying the process and encouraging input
from constituent posts.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 4: Embassy Berlin should take greater care to assure that the
Germany desk in the Department is copied on all relevant email messages.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 5: Embassy Berlin should initiate an in-house English writing
program to assist local staff members who need to improve their writing skills and/or provide
them adequate time to take online writing courses offered by the Foreign Service Institute.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 6: Embassy Berlin should require that the Ambassador's staff
assistant review, with relevant section heads or their representatives, the requests for speaking
engagements by the Ambassador with an eye toward maintaining a balance that fits well within
the mainstream of thematic and audience targets, as set forth in the Mission Strategic and
Resource Plan.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 7: Embassy Berlin should coordinate with Consulate General
Frankfurt to report on the consulate general's visa appointment program to the Bureau of
Consular Affairs for possible development and broader use.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 8: Embassy Berlin should review the position description for the
                                        41
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Class B cashier's position in Consulate General Munich, revise any inaccuracies, and reclassify
the position.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 9: Embassy Berlin should include in its new employee orientation
a session on frequently asked personnel questions and answers and post these on the mission's
human resources intranet site.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 10: Embassy Berlin should include customer service as an element
in human resources staff position descriptions and performance evaluations.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 11: Embassy Berlin should review the requirements for Consulate
General Frankfurt's unfilled professional associate position as well as the language requirement
listed in the position description to ensure that it is accurate.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 12: Embassy Berlin should request a blanket waiver from the
Bureau of Overseas Buildings Operations pertaining to the disputes resolution clause of the
residential model lease.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 13: Embassy Berlin should require Consulate General Munich to
document the proceedings of its interagency housing board meetings in written records.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 14: Embassy Berlin should include a full and written explanation
for the contract file for sole source acquisitions of commercial items per the Overseas
Contracting and Simplified Acquisition Guidebook.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 15: Embassy Berlin should use the International Cooperative
Administrative Support Services Service Center's mechanism for processing furniture pool
collections and reallotting them to the constituent posts' International Cooperative
Administrative Support Services allotment as a means to increase transparency, rationalize
furniture purchases, and reduce warehousing.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 16: Embassy Berlin should require Consulate General Frankfurt to
                                       42
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

complete trip tickets for motor pool trips, including passenger signatures where appropriate.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 17: Embassy Berlin should disseminate to its staff the latest
information on assessment of drinking water quality and efforts to address heating, ventilation,
and air conditioning deficiencies.

        CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 18: Embassy Berlin should test the information technology
contingency plans missionwide.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 19: Embassy Berlin should issue a management notice to explain
the residential telephone policy.

       CFR Findings: Revised and reissued as formal Recommendation CFR 16.

Informal Recommendation 20: Embassy Berlin should label the unclassified power supply
panels in the Berlin chancery and Clayallee facility and at the consulate general in Munich to
indicate the equipment served by the panels.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 21: Embassy Berlin should recruit, appoint, and train local
employee Equal Employment Opportunity liaisons, using the materials on the Office of Civil
Rights Web site, at all consulates general and the three embassy buildings.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 22: Embassy Berlin should do a survey of the embassy community
to be used in planning how the community liaison office can best meet the needs of the embassy
community.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 23: Embassy Berlin should revise its procedures to ensure that the
mission timekeepers do not report their own time and attendance.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 24: Embassy Berlin should review the merits of using fixed
obligation grants in at least some of smaller grant awards and provide guidance to the grants
staff.

       CFR Findings: The CFR team confirmed implementation; recommendation closed.
                                       43
                           SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

          CONTACT THE
  OFFICE OF INSPECTOR GENERAL
             HOTLINE
       TO REPORT ILLEGAL
    OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
